 Semiannual Report To
 The Congress




April 1, 2007 - September 30, 2007
OIG-CA-08-006




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
                                    HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 14 reports. Work by our
Office of Investigations resulted in 7 convictions by plea agreement, 1 conviction by trial, and
the indictment of 4 individuals. Investigative activities also resulted in $793,070 in court-
ordered fines, restitution, and civil settlements, as well as 45 personnel actions. Some of our
significant results for this semiannual period are described below:

•   We completed a follow-up audit to determine whether the Office of Foreign Assets Control
    (OFAC) had acted to improve its ability to ensure that financial institutions are complying with
    OFAC sanctions. In April 2002, we reported that OFAC was limited in its ability to monitor
    financial institution compliance. We recommended at the time that OFAC inform Congress of
    legislative impairments which prevent OFAC from conducting its own examinations of banks
    or having access to their financial records. Our follow up audit found that OFAC had not
    sought legislative change to improve its ability to ensure financial institutions comply with
    OFAC sanctions as OFAC management is satisfied with the current system. Since our prior
    report was issued, two significant actions have occurred. As one action, OFAC entered into a
    memorandum of understanding (MOU) with the federal banking agencies to improve
    information sharing. Second, the Federal Financial Institutions Examination Council issued
    comprehensive OFAC compliance examination guidance. Recognizing that these recent actions
    need time to mature, we recommended and OFAC agreed to (1) monitor whether the OFAC-
    related examination information provided under the MOUs is sufficient and (2) determine
    whether MOUs should be established with other federal financial regulators and self-regulatory
    organizations.

•   We reported that Treasury successfully demonstrated the disaster recovery capability of its
    Treasury Communications System in a January 2007 test. In addition, we found that Treasury
    had resolved findings identified in our 2005 report on a previous disaster recovery exercise of
    the system and implemented all five corresponding recommendations. Although the January
    2007 exercise was successful, we also reported on two areas that require improvement.

•   As part of our ongoing Improper Payments Initiative, we continued to work with our
    counterparts at the Social Security Administration, Railroad Retirement Board, Veterans
    Administration, and other federal agencies. This joint effort has to date resulted in the
    identification of 88 potential violators who unlawfully obtained approximately $5.9 million in
    potential federal benefits. In addition, the effort has resulted in the arrest of 20 individuals, the
    conviction of 14, restitutions of $530,950, and the recovery of $85,404. As an example of a
    joint investigation this period, a Georgia resident was arrested in a case involving
    approximately $69,000 in veteran benefits issued by the Financial Management Service after
    the death of the beneficiary.

•   An investigation found that a Mint employee used a counterfeit Mint parking pass to park his
    privately owned vehicle in the Mint parking garage while he was enrolled in the Mint Public
    Transportation Incentive Program. The Mint terminated the employee.

•   As a follow up to a previously reported investigation, a former BEP employee was sentenced in
    May 2007 to 3 years of incarceration, 3 years of supervised release, and ordered to pay
    restitution in the amount of $290,000 for defrauding the federal employee workers’
    compensation program.
A MESSAGE FROM THE INSPECTOR GENERAL
       I am pleased to present the Department of the Treasury Office of Inspector
General Semiannual Report summarizing activities for the 6 month period from
April 1, 2007, through September 30, 2007.

        Over the past 6 months, we have continued to perform our mandated work
as well as help the Department address its major management challenges. We
believe the Department continues to make progress to that end. Recently, the
Department filled a number of key management positions including the Assistant
Secretary for Management and Chief Financial Officer and the Deputy Assistant
Secretary for Information Systems/Chief Information Officer. We anticipate that this
will further support the Department’s continuing efforts to address a number of its
challenges, particularly in the areas of corporate management, management of
capital investments, and information security.

        It is also important to note that during this semiannual period the Department
established the Personally Identifiable Information Risk Management Group
(PIIRMG). The purpose of this group is to help manage and contain breaches of
personally identifiable information. My office, along with the Treasury Inspector
General for Tax Administration, participates in the PIIRMG in an advisory role.

      We continue to receive excellent support and cooperation from Secretary
Paulson, Deputy Secretary Kimmitt, and other senior officials throughout the
Department. This has greatly facilitated our ability to carry out our mission.




                                   Dennis S. Schindel
                                   Acting Inspector General
This Page Intentionally Left Blank
                                            TABLE OF CONTENTS

Highlights in Brief

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                         1

        About Our Office ...........................................................................................       1
        About Treasury .............................................................................................       2

Treasury Management and Performance Challenges ...........................................                                 5

        Introduction ..................................................................................................    5
        Management and Performance Challenges ........................................................                     5
        Areas of Concern...........................................................................................        7

Significant Audits and Evaluations ...................................................................                    9

        Financial Management ....................................................................................          9
        Information Technology ..................................................................................         11
        Programs and Operations ................................................................................          12

Significant Investigations ................................................................................               17

        Improper Payments Initiative ...........................................................................          17
        Other Significant Investigations .......................................................................          20

Other OIG Accomplishments and Activity .........................................................                          23

Statistical Summary .......................................................................................               27

        Summary of OIG Activity ................................................................................          27
        Significant Unimplemented Recommendations ...................................................                     28
        Summary of Instances Where Information Was Refused......................................                          31
        Listing of Audit and Evaluation Reports Issued...................................................                 31
        Audit Reports Issued With Questioned Costs .....................................................                  32
        Audit Reports Issued With Recommendations that
           Funds Be Put to Better Use .........................................................................           33
        Previously Issued Audit Reports Pending Management Decisions
           (over Six Months) ......................................................................................       33
        Significant Revised Management Decisions .......................................................                  33
        Significant Disagreed Management Decisions ....................................................                   33
        References to the Inspector General Act ..........................................................                34

Abbreviations ................................................................................................            35
This Page Intentionally Left Blank
                            OVERVIEW OF OIG AND TREASURY

About Our Office
The Department of the Treasury’s Office of Inspector General (OIG) was established pursuant
to the 1988 amendment to the Inspector General Act of 1978. 1 OIG is headed by an Inspector
General (IG) who is appointed by the President of the United States, with the advice and
consent of the United States Senate. Serving with the IG in the immediate office is a Deputy
Inspector General. OIG performs independent and objective reviews of Treasury programs and
operations, except for those of the Internal Revenue Service (IRS), and keeps the Secretary of
the Treasury and Congress fully informed of problems, deficiencies, and the need for
corrective action. The Treasury Inspector General for Tax Administration performs audit and
investigative oversight related to IRS.

OIG is organized into four divisions: (1) Office of Audit (OA), (2) Office of Investigations (OI),
(3) Office of Counsel, and (4) Office of Management.

          OA performs and supervises audits, attestation engagements, and evaluations. The
          Assistant Inspector General for Audit has two deputies. One deputy is primarily
          responsible for performance audits, and the other deputy is primarily responsible for
          financial management and information technology audits. OA staff are located in
          Washington, DC, and Boston, Massachusetts.

          OI performs investigations and conducts proactive initiatives aimed at detecting and
          preventing fraud, waste, and abuse in Treasury programs and operations. OI also
          manages the Treasury OIG Hotline System to facilitate reporting of allegations involving
          programs and activities under the auspices of the Department. The Assistant Inspector
          General for Investigations is responsible for the supervision and conduct of all
          investigations relating to the Department’s programs and operations and performs
          integrity oversight reviews within select Treasury bureaus. The Office of Investigations
          is located in Washington, DC.

          Office of Counsel (1) processes all Freedom of Information Act/Privacy Act requests
          and administrative appeals on behalf of OIG; (2) processes all discovery requests for
          information held by OIG; (3) represents OIG in administrative Equal Employment
          Opportunity and Merit Systems Protection Board proceedings; (4) conducts ethics
          training and provides ethics advice to OIG employees and ensures OIG compliance with
          financial disclosure requirements; (5) reviews proposed legislation and regulations
          relating to the Department; (6) reviews and issues IG subpoenas; (7) reviews and
          responds to all Giglio requests for information about Treasury personnel who may
          testify in trials; and (8) provides advice to all components within the OIG on
          procurement, personnel, and other management matters and on pending OIG audits and
          investigations.

          Office of Management provides a range of services designed to maintain the OIG
          administrative infrastructure. These services include asset management; budget
          formulation and execution; financial management; information technology; and

1
    5 U.S.C. app. 3.


                Treasury Office of Inspector General Semiannual Report – September 2007              1
                       OVERVIEW OF OIG AND TREASURY

     officewide policy preparation, planning, emergency preparedness, and reporting for
     OIG. The Assistant Inspector General for Management is in charge of these functions.

     As of September 30, 2007, OIG had 105 full-time staff. OIG’s fiscal year 2007
     appropriation was $17.0 million.


About Treasury
     Treasury’s mission is to serve the American people and strengthen national security by
     managing the U.S. Government’s finances effectively, promoting economic growth and
     stability, and ensuring the safety, soundness, and security of U.S. and international
     financial systems. Organized into bureaus and offices, Treasury encompasses a wide
     range of programs and operations. Currently, Treasury has approximately 109,000 full-
     time equivalent staff. Approximately 92,800 are employed by IRS and approximately
     16,200 are employed by other Treasury bureaus and offices.

Treasury Bureaus

     The Alcohol and Tobacco Tax and Trade Bureau is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     The Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     The Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     The Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     The Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.

     The Internal Revenue Service (IRS) is the nation's tax collection agency and administers
     the Internal Revenue Code.

     The U.S. Mint designs and manufactures domestic bullion, foreign coins,
     commemorative medals and other numismatic items. The Mint also distributes U.S.
     coins to the Federal Reserve Banks and maintains physical custody of and protects the
     nation's gold and silver assets.



           Treasury Office of Inspector General Semiannual Report – September 2007            2
                        OVERVIEW OF OIG AND TREASURY


      The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      The Office of Thrift Supervision (OTS) regulates all federal and many state-chartered
      thrift institutions, which include savings banks and savings and loan associations.

Treasury Offices

      The Departmental Offices (DO) formulates policy and manages Treasury operations.

      The Office of Terrorism and Financial Intelligence uses Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats. It is headed by an Under Secretary and includes two major
      components: the Office of Terrorist Financing and Financial Crime and the Office of
      Intelligence and Analysis. An Assistant Secretary oversees each of these offices.

      •   The Office of Terrorist Financing and Financial Crime is responsible for integrating
          FinCEN, the Office of Foreign Assets Control (OFAC), and the Treasury Executive
          Office for Asset Forfeiture. OFAC administers and enforces economic and trade
          sanctions based on U.S. foreign policy and national security goals against targeted
          foreign countries, terrorists, international narcotics traffickers, and those engaged in
          activities related to the proliferation of weapons of mass destruction. The Treasury
          Executive Office for Asset Forfeiture administers the Treasury Forfeiture Fund, the
          receipt account for the deposit of nontax forfeitures made by IRS Criminal
          Investigation and the Department of Homeland Security. The Office of Terrorist
          Financing and Financial Crime also works closely with IRS Criminal Investigation to
          enforce laws against terrorist financing and money laundering, including the Bank
          Secrecy Act (BSA).

      •   The Office of Intelligence and Analysis is responsible for the receipt, analysis,
          collation, and dissemination of foreign intelligence and foreign counterintelligence
          information related to the operation and responsibilities of Treasury.

      The Office of Management is responsible for Treasury’s internal management and
      policy in the areas of budget, planning, human resources, information and technology
      management, financial management and accounting, procurement, and administrative
      services to DO. It is headed by the Assistant Secretary for Management and Chief
      Financial Officer (CFO). The Office of DC Pensions, which is within the Office of
      Management, makes federal benefit payments associated with District of Columbia
      retirement programs for police officers, firefighters, teachers, and judges.

      The Office of International Affairs advises on and assists in formulating and executing
      U.S. international economic and financial policy. Its responsibilities include developing



            Treasury Office of Inspector General Semiannual Report – September 2007               3
                  OVERVIEW OF OIG AND TREASURY

policies and guidance in the areas of international financial, economic, monetary, trade,
investment, bilateral aid, environment, debt, development, and energy programs,
including U.S. participation in international financial institutions.

The Exchange Stabilization Fund is used to purchase or sell foreign currencies, hold
U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
foreign governments.

The Community Development Financial Institutions Fund expands the availability of
credit, investment capital, and financial services in distressed urban and rural
communities.

The Federal Financing Bank provides federal and federally assisted borrowing, primarily
to finance direct agency activities such as construction of federal buildings by the
General Services Administration and meeting the financing requirements of the U.S.
Postal Service.




      Treasury Office of Inspector General Semiannual Report – September 2007           4
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

Introduction
In accordance with the Reports Consolidation Act of 2000, the IG annually provides the
Secretary of the Treasury with his perspective on the most serious management and
performance challenges facing the Department. The Secretary includes these challenges in the
Department’s annual performance and accountability report. In a memorandum to Secretary
Paulson dated October 24, 2007, Acting Inspector General Schindel continued to report the
same five challenges as our office reported last year: (1) Corporate Management,
(2) Management of Capital Investments, (3) Information Security, (4) Linking Resources to
Results, and (5) Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
Enforcement. As we advised in the memorandum, it is important to note that management and
performance challenges do not necessarily represent a deficiency in management or
performance. Instead, most of them represent inherent risks associated with Treasury’s
mission, organizational structure, or the environment in which it operates. As a result, the
Department can take steps to mitigate these challenges but not entirely eliminate them; as
such, they require constant management attention. In addition to these five management and
performance challenges, our memorandum discussed two additional areas that are of
increasing concern to our office. These areas are: the potential impact of worsening real estate
and credit markets on Treasury’s regulators, and the affect of stagnant or reduced budgets on
the Department’s control environment.


Management and Performance Challenges
•   Corporate Management. Starting in 2004, we identified corporate management as an
    overarching management challenge. In short, Treasury needs to provide effective corporate
    leadership in order to improve performance as a whole. Inherent in this is the need for clear
    lines of accountability between corporate, bureau, and program office management;
    enterprise solutions for core business activities; consistent application of accounting
    principles; and effective oversight of capital investments and information security. With
    nine bureaus and a number of program offices, Treasury is a highly decentralized
    organization. We believe the Department has made progress in building up a sustainable
    corporate control structure. The challenge now is to maintain emphasis on corporate
    governance and institutionalize these efforts to ensure that capital investments are properly
    managed, information about government operations and citizens is adequately secured, and
    financial resources used by Treasury can be linked to operational results.

•   Management of Capital Investments. Managing large capital investments, particularly
    information technology (IT) investments, is a difficult challenge facing any organization
    whether in the public or private sector. In prior years we have reported on a number of
    capital investment projects that either failed or had serious problems. In light of this, with
    hundreds of millions of procurement dollars at risk, Treasury needs to be vigilant in this
    area as it proceeds with its telecommunications transition to TNet, implementation of
    Homeland Security Presidential Directive – 12, Policy for a Common Identification Standard
    for Federal Employees and Contractor, the anticipated renovation of the Treasury Annex,
    and other large capital investments.




              Treasury Office of Inspector General Semiannual Report – September 2007           5
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    It should be noted that during the last year, the Secretary and Deputy Secretary continued
    to emphasize that effective management of major IT investments is the responsibility of all
    Treasury executives. Additionally, the Department significantly increased the number of IT
    investments that are monitored through the Office of Management and Budget (OMB)
    quarterly high-risk reporting process. The Department also plans to reinstitute a governance
    board consisting of senior management officials to provide executive decision-making on,
    and oversight of, IT investment planning and management and to ensure compliance with
    the related statutory and regulatory requirements.

•   Information Security. Despite notable accomplishments, the Department needs to improve
    its information security program and practices to achieve compliance with the Federal
    Information Security Management Act of 2002 (FISMA) and OMB requirements. Our 2007
    FISMA evaluation, completed in October 2007, found that the Department made progress
    in addressing previously reported deficiencies in the areas of certification and accreditation,
    information security training, plans of actions and milestones, system inventory, and
    incident response. However, our evaluation disclosed a significant deficiency in
    configuration management. Specifically, we noted that Treasury did not have adequate
    configuration management to provide the security necessary to protect against common
    and dangerous threats.

    During 2006, OMB issued Memorandum 06-16, Protection of Sensitive Agency Information
    (M-06-16), requiring agencies to perform specific actions to protect certain personally
    identifiable information. Last year, we reported that our evaluation of Treasury’s
    compliance with M-06-16 disclosed that Treasury still faced significant challenges to meet
    these requirements. We will be performing follow-up work to determine if Treasury has
    progressed in resolving these issues. However, as a significant action, the Department
    recently established the Personally Identifiable Information Risk Management Group
    (PIIRMG) consisting of senior management officials. The purpose of this group is to help
    manage and contain breaches of personally identifiable information. Our office, along with
    the Treasury Inspector General for Tax Administration, participates in the PIIRMG in an
    advisory role.

•   Linking Resources to Results. Because the Department has not fully developed and
    incorporated managerial cost accounting (MCA) into its business activities, the Department
    cannot adequately link financial resources to operating results. This inhibits comprehensive
    program performance reporting and meaningful cost benefit analyses of the Department’s
    programs and operations. We have noted progress in this area, but more needs to be
    accomplished to implement an effective MCA program Treasury-wide. In 2006, we
    reported that the Department developed a high-level MCA implementation plan, but
    specific action items were not completed and certain target dates were missed. This year,
    Treasury established a workgroup to address MCA requirements and the workgroup has
    completed a number of actions. The Department expects to have a viable MCA program in
    place in fiscal year 2008.

•   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act. Treasury faces unique
    challenges in carrying out its responsibilities under BSA and the USA Patriot Act to prevent
    and detect money laundering and terrorist financing. While FinCEN is the Treasury bureau



              Treasury Office of Inspector General Semiannual Report – September 2007            6
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    responsible for administering BSA, a large number of federal and state entities participate
    in efforts to ensure compliance with BSA. These entities include the five federal banking
    regulators, IRS, the Securities and Exchange Commission, the Department of Justice, and
    state regulators. Many of these entities also participate in efforts to ensure compliance
    with U.S. foreign sanction programs administered by OFAC. The dynamics and challenges
    for Treasury of coordinating the efforts of multiple entities, many external to Treasury, are
    difficult. In this regard, FinCEN and OFAC have entered into memoranda of understanding
    (MOU) with many federal and state regulators in an attempt to build a consistent and
    effective process. Long-term data, however, is not yet available to make an overall
    determination of the effectiveness of the MOUs.

    Recently, federal regulators and the Department of Justice have participated with FinCEN
    in assessing fines, often in the tens of millions of dollars, against financial institutions
    which have not been maintaining effective BSA compliance programs. While this is a sign
    that regulators are more willing to aggressively enforce BSA requirements, it is also a sign
    that not all financial institutions, despite years of warnings, have implemented effective or
    adequate programs. At the same time, the financial services industry has often complained
    about regulatory burden. To this end, Treasury has taken steps to clarify program and
    reporting requirements, and must continually monitor and balance the needs of law
    enforcement with these concerns.

    In fiscal year 2006, the number of BSA reports filed increased to 17.6 million, from 15.6
    million in fiscal year 2005. Although these reports are critical to law enforcement, past
    audits have shown that many contain incomplete or erroneous data. Also, the USA Patriot
    Act increased the types of financial institutions required to file these reports. The
    regulation of certain industries, such as casinos, insurance companies, jewelers, and
    money service businesses, is the responsibility of IRS as a default regulator. IRS has often
    struggled to conduct examinations of many of these entities and recently postponed
    examinations of jewelers, which were supposed to start in January 2006, until at least
    fiscal year 2008.


Areas of Concern
In addition to these five management and performance challenges, we also reported two areas
that are of increasing concern to our office. While we have not specifically declared these
areas as management and performance challenges, we will continue to monitor their impact on
the Department’s programs and operations.

•   Recently, conditions in the real estate market have worsened. At the same time, credit
    markets are being impacted by problems associated with subprime loans. Together, these
    events are putting pressure on financial institutions, including those supervised by OCC
    and OTS. For example, in September the OTS-supervised NetBank failed, representing the
    largest financial institution failure since 2001. Accordingly, Treasury needs to ensure it has
    the capability to monitor and take prompt action to address potential problems at other
    institutions should economic conditions worsen.




              Treasury Office of Inspector General Semiannual Report – September 2007            7
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

•   Many federal agencies, including Treasury, are facing an increasingly difficult budget
    environment. In these situations agencies tend to rely on attrition and hiring freezes to
    address budget shortfalls. While in the short term this strategy may work, longer term it
    often leads to a less than optimal mix of positions and skills, ultimately impacting an
    agency’s ability to meet its mission for many years. Additionally, agencies tend to cut
    certain operations that are viewed as non-mission related, particularly those involved in
    review and monitoring functions, including contractor oversight – fundamental elements of
    a strong control environment. Over time, such actions could lead to the deterioration of the
    control environment and compromise both the effectiveness and integrity of programs and
    operations.




             Treasury Office of Inspector General Semiannual Report – September 2007           8
                      S IGNIFICANT A UDITS AND E VALUATIONS

Financial Management

Financial Audits

The Chief Financial Officers Act (CFO Act), as amended by the Government Management Reform
Act of 1994 (GMRA), requires annual financial statement audits of Treasury and OMB-designated
entities. In this regard, OMB has designated IRS for annual financial statement audits. The
financial statements of certain other Treasury component entities are audited pursuant to other
requirements or due to their materiality to Treasury’s consolidated financial statements. The
following table shows audit results for fiscal years 2006 and 2005.


   Treasury audited financial statements and related audits
                                            Fiscal year 2006 audit results     Fiscal year 2005 audit results
                                                                Other                              Other
                                                    Material    reportable             Material    reportable
   Entity                            Opinion        weakness    conditions   Opinion   weakness    conditions
   GMRA/CFO Act requirements
     Department of the Treasury            UQ              1             2        UQ           1                1
     Internal Revenue Service (A)          UQ              4             1        UQ           4                2
   Other required audits
     Bureau of Engraving and
                                           UQ              0             1        UQ           0                1
     Printing
     Community Development
                                           UQ              0             2        UQ           0                0
     Financial Institutions Fund
     Office of DC Pensions                 UQ              0             0        UQ           0                0
     Exchange Stabilization Fund           UQ              0             0        UQ           0                0
     Federal Financing Bank                UQ              0             0        UQ           0                0
     Office of the Comptroller of
                                           UQ              0             1        UQ           0                0
     the Currency
     Office of Thrift Supervision          UQ              0             0        UQ           0                0
     Treasury Forfeiture Fund              UQ              0             1        UQ           1                1
     Mint
       Financial statements                UQ              0             1        UQ           0                1
       Custodial gold and silver
                                           UQ              0             0        UQ           0                0
       reserves
   Other audited accounts that are material to Treasury financial statements
     Bureau of the Public Debt
       Schedule of Federal Debt
                                           UQ              0             0        UQ           0                0
       (A)
       Government trust funds              UQ              0             0        UQ           0                0
     Financial Management Service
       Treasury managed accounts           UQ              0             0        UQ           0                0
       Operating cash of the
                                           UQ              0             1        UQ           0                1
       federal government
   Management-initiated
     FinCEN                                UQ              0             0        UQ           1                0
   UQ Unqualified opinion.
   (A) Audited by the Government Accountability Office.




               Treasury Office of Inspector General Semiannual Report – September 2007                          9
                        S IGNIFICANT A UDITS AND E VALUATIONS

Audits of the fiscal year 2007 financial statements or schedules of the Department and
component reporting entities were in progress at the end of this semiannual reporting period.

The following instances of noncompliance with the Federal Financial Management Improvement
Act of 1996 (FFMIA) were reported in connection with the audit of the Department’s fiscal year
2006 consolidated financial statements. All instances relate to IRS. Because of the length of time
that it will take to implement IRS’s system modernization effort, many of the planned timeframes
exceed the 3-year resolution period specified in FFMIA. As a result, and in accordance with
FFMIA, IRS received a waiver from this requirement from OMB. The current status of these
FFMIA noncompliances, including progress in implementing remediation plans, will be evaluated
as part of the audit of Treasury’s fiscal year 2007 financial statements.

                                                                                       Fiscal year
                                                                                                               Type of
Entity   Condition                                                                            first
                                                                                                         noncompliance
                                                                                          reported
         Financial management systems do not provide timely and reliable
         information for financial reporting and preparation of financial
         statements. IRS had to rely extensively on resource-intensive                                  Federal financial
         compensating procedures to generate reliable financial statements. IRS                            management
IRS                                                                                         1997
         also lacks a subsidiary ledger for its unpaid assessments and lacks an                                 systems
         effective audit trail from its general ledger back to subsidiary detailed                         requirements
         records and transaction source documents for material balances such as
         tax revenues and tax refunds.
         Deficiencies were identified in information security controls, resulting in                    Federal financial
         increased risk of unauthorized individuals being allowed to access, alter,                        management
IRS                                                                                         1997                systems
         or abuse proprietary IRS programs and electronic data and taxpayer
         information.                                                                                      requirements
         Material weaknesses were identified related to controls over unpaid tax                      Federal accounting
IRS                                                                                         1997               standards
         assessments, tax revenue, and refunds.
         Financial management system cannot routinely accumulate and report                           Federal accounting
IRS                                                                                         1998
         the full costs of its activities.                                                                     standards
         General ledger system lacks an effective audit trail to detailed records
                                                                                                       Standard general
IRS      and transaction source documents for material balances such as tax                 1997
                                                                                                                 ledger
         revenues and tax refunds.


Attestation Engagements

The following attestation engagements, related to BPD controls over processing transactions for
other federal agencies, were completed in support of the audit of Treasury’s fiscal year 2007
consolidated financial statements. These engagements also support the financial statement audits
of certain other federal agencies.

An independent public accountant (IPA), under our supervision, examined the accounting
processing and general computer controls related to certain services provided by BPD’s
Administrative Resource Center to various federal agencies. The IPA found that (1) BPD’s
description of controls for these activities fairly presented, in all material respects, the controls
that had been placed in operation as of June 30, 2007; (2) the controls were suitably designed;
and (3) the controls tested by the IPA were effective during the period July 1, 2006, to



                 Treasury Office of Inspector General Semiannual Report – September 2007                          10
                     S IGNIFICANT A UDITS AND E VALUATIONS

June 30, 2007. The IPA noted no instances of reportable noncompliance with laws and
regulations tested. (OIG-07-044)

An IPA under our supervision performed examinations that covered the general computer and
investment/redemption processing controls related to BPD’s transactions processing of
investment accounts for various federal government agencies and the general computer and trust
fund management processing controls related to BPD’s transactions processing of investment
accounts of various federal and state government agencies. The IPA found that (1) BPD’s
description of these controls fairly presented, in all material respects, the controls that had been
placed in operation as of July 31, 2007; (2) the controls were suitably designed; and (3) the
controls tested by the IPA were effective during the period August 1, 2006, to July 31, 2007.
The IPA noted no instances of reportable noncompliance with the laws and regulations tested.
(OIG-07-046 and OIG-07-047)



Information Technology

Treasury Successfully Demonstrated Its TCS Disaster Recovery Capability

                                          In January 2007, we observed a disaster recovery
[W]e found that Treasury had resolved bothexercise of the Treasury Communications System
findings identified in our 2005 report on a
                                          (TCS). Our overall objective for this audit was to
previous TCS disaster recovery exercise.… determine if Treasury could successfully demonstrate
                                          its TCS disaster recovery capability. In addition, we
followed up on findings from the previous disaster recovery exercise.

Treasury successfully demonstrated its TCS disaster recovery capability. In addition, we found
that Treasury had resolved both findings identified in our 2005 report on a previous TCS disaster
recovery exercise and implemented all five corresponding recommendations. Although the
January 2007 exercise was successful, we did find two areas that require improvement.

Treasury management concurred with our findings and recommendations and proposed
appropriate corrective actions. Because of the sensitivity of certain information in our report on
this disaster recovery exercise we designated the report as “sensitive but unclassified.”
(OIG-07-041)

Fiscal Year 2007 Evaluation of FISMA Implementation for Treasury’s Non-IRS Intelligence
Systems (Classified Report)

FISMA requires an annual independent evaluation of the information security program and
practices for Treasury’s national security systems. During this semiannual period, we performed
the FISMA evaluation of Treasury’s non-IRS national security systems as they relate to
Treasury’s intelligence program, noting significant improvement. Our report is classified.
(OIG-CA-07-008)




               Treasury Office of Inspector General Semiannual Report – September 2007         11
                    S IGNIFICANT A UDITS AND E VALUATIONS

BEP Improved Controls Over Its Computer Security Incidence Response Capability

This report presents the results of our review of
corrective actions taken by BEP in response to the          BEP took appropriate corrective actions that
                                                            met the intent of the four recommendations
four recommendations we made in our June 2005
report on BEP’s computer security incident response capability. The recommendations involved
(1) updating the program’s policy and procedures, (2) updating BEP’s Security Awareness and
Training policy, (3) establishing an intrusion detection system and (4) reporting computer security
incidents on time to Treasury’s Computer Security Incident Response Center. We found that BEP
took appropriate corrective actions that met the intent of the four recommendations.
(OIG-07-045)



Programs and Operations

Actions Have Been Taken to Better Ensure Financial Institution Compliance With OFAC
Sanction Programs, But Their Effectiveness Cannot Yet Be Determined

                                             OFAC administers and enforces economic and trade
 The audits also found that examination
                                             sanctions against targeted foreign countries,
 documentation, not addressed in the FFIEC
                                             terrorists, international narcotics traffickers, and
 manual, did not provide persuasive evidence
 that financial institution OFAC compliance  those engaged in activities related to the proliferation
 programs were adequate.                     of weapons of mass destruction. In accordance with
                                             these sanctions, financial institutions are required to
                                             block or reject any transactions involving targeted
individuals, companies, or other organizations with a link to these entities. OFAC has direct
administrative and enforcement authority over regulated institutions, but compliance
examinations of banks and other financial institutions are conducted by federal regulators.

In an April 2002 OIG audit report, we recommended that Treasury inform Congress that OFAC
lacked sufficient authority to ensure that financial institutions comply with OFAC sanctions
requirements. OFAC did not agree with our recommendation. However, OFAC agreed that
(1) regulator information sharing could be improved and (2) increased oversight and detailed
account reviews by regulators could be beneficial.

In April 2006 OFAC entered into a MOU with the five federal banking agencies—OCC, OTS, the
Federal Deposit Insurance Corporation, the Board of Governors of the Federal Reserve System,
and the National Credit Union Administration. The objective of the MOU is to improve information
sharing so as to mitigate the risk of not being made aware of financial institution noncompliance
issues. It was too early for us to evaluate its effectiveness, and we noted the MOU caveats that
information be shared with OFAC to the extent permitted by law, including the Right to Financial
Privacy Act. In this regard, OFAC believes that the caveats only minimally impact its ability to
obtain information from regulators and financial institutions.

In addition, in June 2005 the Federal Financial Institutions Examination Council (FFIEC) issued the
Bank Secrecy Act/Anti-Money Laundering Examination Manual (FFIEC manual), which provides


              Treasury Office of Inspector General Semiannual Report – September 2007             12
                    S IGNIFICANT A UDITS AND E VALUATIONS

comprehensive guidance for banking regulatory agencies to follow when conducting OFAC
compliance examinations. Our audits of OCC and OTS, and audits by the Offices of Inspector
General of the Federal Deposit Insurance Corporation and National Credit Union Administration of
their respective agencies indicated that such guidance was needed. The audits also found that
examination documentation, not addressed in the FFIEC manual, did not provide persuasive
evidence that financial institution OFAC compliance programs were adequate. In response, the
four audited agencies agreed to improve OFAC examination documentation going forward.

We recommended that OFAC monitor whether the OFAC-related examination information
provided by the federal banking agencies is sufficient to assess compliance at specific institutions
and for the overall banking industry. If necessary, appropriate action should be taken, such as
seeking modification to the April 2006 MOU. We also recommended that OFAC determine
whether MOUs should be established with other federal financial regulators. In response, OFAC
reiterated its position that the information it obtains from mandatory blocking and reject reports,
as well as from other sources, complemented by information shared under the MOU, enable it to
adequately assess compliance at specific institutions and for the overall banking industry. OFAC,
however, intends to monitor the situation to assure the usefulness of information from financial
institution examinations. Regarding information sharing with other organizations not currently
under an MOU, OFAC said it shares information with the Securities and Exchange Commission
and others, and is in the process of establishing an MOU with IRS. OFAC will monitor the
efficiency and effectiveness of the procedures established and make adjustments as necessary.
(OIG-07-048)

Committee on Foreign Investments in the United States and OFAC Implemented Prior OIG
Recommendations

We conducted an audit to determine whether                 We found that OFAC had implemented
Treasury had effectively implemented                       procedures that fulfilled the intent of these
recommendations from two prior OIG reports on              two recommendations but had not formalized
Treasury’s enforcement of controls on the export of        the procedures as written policy.
militarily sensitive technology to countries and entities
of concern. The two reports were Department of the Treasury Efforts to Prevent Illicit Transfers
of U.S. Military Technologies, OIG-00-072 (Mar. 23, 2000) and Export Enforcement: Numerous
Factors Impaired Treasury’s Ability to Effectively Enforce Export Controls, OIG-03-069 (Mar. 25,
2003). This audit was conducted under the auspices of an interagency working group of OIGs.

In our 2000 report, we recommended that the Chair of the Committee on Foreign Investments in
the United States (CFIUS) coordinate efforts with other committee members to identify and
evaluate all sources of available data that could help identify Exon-Florio non-filers. We found
that the procedure CFIUS implemented in response to our recommendation was effective. In our
2003 report, we recommended that the Director of OFAC coordinate with State Department
officials to implement an automated process to allow both agencies to track the status of license
determination referrals. We also recommended that the Director of OFAC coordinate with
Customs officials to ensure that OFAC investigative referrals can be linked to Customs cases. We
found that OFAC had implemented procedures that fulfilled the intent of these two
recommendations but had not formalized the procedures as written policy.



              Treasury Office of Inspector General Semiannual Report – September 2007              13
                     S IGNIFICANT A UDITS AND E VALUATIONS

In our 2007 report we recommended that the Director of OFAC ensure that OFAC develops
written policy to formalize the procedures of having (1) monthly meetings with the State
Department to review the status of license determination referrals and (2) regular meetings with
Immigration and Customs Enforcement (ICE) to review the status of ICE-initiated investigations
and OFAC referrals. OFAC concurred with our recommendations. OFAC has drafted a policy
memorandum to ensure continued monthly meetings with State Department officials. OFAC also
drafted a policy memorandum to ensure continued coordination with criminal law enforcement
agencies, including ICE, concerning violations of OFAC regulations. In June 2007, OFAC reported
that both memoranda had been distributed. (OIG-07-040)

OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks Following
Emergencies

                                         Following Hurricanes Katrina and Rita, we conducted
We found that OCC Emergency Event
                                         an audit to determine (1) how prepared OCC was to
Procedures did not specifically address
                                         address the needs of banks and their customers during
documenting all important elements of
                                         and immediately after the two hurricanes and
financial condition from at-risk community
banks in a consistent manner….           (2) OCC’s plans and abilities to assess and manage
                                         increased risks to banks following emergencies. We
focused our audit on OCC’s supervision of community banks.

OCC determined that Hurricanes Katrina and Rita had posed risks to community banks in the Gulf
Coast Region. Short-term risks were primarily to the banks’ operations, while long-term risks
were primarily to the banks’ financial condition. OCC evaluated these risks by obtaining
assessments from bank management and subsequently performing analyses and examinations.
OCC identified 12 community banks as “at-risk” based on their lending exposure in areas most
affected by the hurricanes. OCC obtained initial financial information on at-risk community banks
within 45 days after Hurricane Katrina and 19 days after Hurricane Rita.

We found that OCC Emergency Event Procedures did not specifically address documenting all
important elements of financial condition from at-risk community banks in a consistent manner,
nor did the procedures specify timeframes for analyzing the effects of the hurricanes on the at-
risk community banks’ financial condition. We also found areas where OCC could improve its
operational risk assessment of community banks following emergencies as OCC could not
provide evidence of contact with all community banks in areas affected by Hurricane Rita. Also,
weaknesses existed in the identification of banks in these areas, and OCC had difficulty
establishing communication with community banks following Hurricane Katrina.

In its response to our recommendations, OCC agreed to modify its Emergency Event Procedures
to incorporate its risk-based approach to supervision. In addition, OCC modified its Southern
District procedures to specify documentation of important elements of financial condition of at-
risk banks in a consistent manner and to specify timeframes to analyze the effects on the bank’s
financial condition. OCC also agreed to ensure that its systems include alternative contact
information for bank personnel and to develop a methodology to accurately and consistently
identify banks that should be monitored during an emergency event. (OIG-07-038)




               Treasury Office of Inspector General Semiannual Report – September 2007      14
                    S IGNIFICANT A UDITS AND E VALUATIONS

The results of this audit of OCC were in line with that of an audit of OTS discussed in our prior
semiannual report.

Survey of Treasury's Trade Facilitation Operations

Pursuant to a Congressional request, we surveyed
Treasury’s trade facilitation operations under the      Treasury’s primary functions related to trade
auspices of the Trade Promotion Coordinating            promotion are to provide support for
Committee (TPCC). TPCC was created to provide           reducing various trade barriers and creating
a unifying interagency framework to coordinate          a level playing field for trade and U.S.
U.S. export promotion and export financing              exporters, rather than promoting individual
activities and to develop a governmentwide              U.S. businesses. These functions are
strategic plan for such activities.                     performed with a budget of $3 million.

Our objectives were to identify (1) the offices involved in trade facilitation within Treasury,
(2) the offices’ missions and partners in carrying out their missions, (3) how the offices promoted
U.S. exports, (4) how the offices measured and reported the results of their trade promotion
efforts, and (5) annual Treasury expenditures associated with the promotion of U.S. exports. We
also (1) determined what guidance Treasury provided to U.S. representatives at selected
multilateral development banks, (2) asked how Treasury tracked the effectiveness of multilateral
development banks’ trade-capacity-building programs, and (3) determined how Treasury
programs or activities are selected for inclusion in the annual National Export Strategy report
issued by the Department of Commerce.

Treasury’s primary functions related to trade promotion are to provide support for reducing
various trade barriers and creating a level playing field for trade and U.S. exporters, rather than
promoting individual U.S. businesses. These functions are performed with a budget of $3 million.
Treasury also provides the multilateral development banks’ U.S. Executive Directors guidance on
policies, loans, and grants, and voting instructions on multilateral development bank project
proposals. Treasury tracks the projects to determine whether they are adequately addressing
Treasury objectives and expectations and that they comply with legislative mandates. Finally,
Treasury's input to the annual National Export Strategy report generally depends on which topics
are selected for inclusion by the TPCC Secretariat and Department of Commerce officials.

To address these objectives and make these determinations, we reviewed related documents and
interviewed officials and personnel within Treasury and at selected multilateral development
banks. We did not issue any recommendations at the conclusion of our review. (OIG-07-039)

Federal Employee Workers’ Compensation Program at Departmental Offices Was
Deficient; BEP’s Program Was Generally Effective

 DO was unable to locate 10 of the 15       The Federal Employees’ Compensation Act (FECA)
 workers’ compensation case files that we   provides compensation benefits to civilian employees
 selected for review.                       of the United States for disability due to personal
                                            injury or disease sustained while in the performance
of duty. FECA also provides for payment of benefits to an employee’s dependents if a work-
related injury or disease causes the employee’s death. We conducted audits at DO and BEP to


              Treasury Office of Inspector General Semiannual Report – September 2007               15
                   S IGNIFICANT A UDITS AND E VALUATIONS

determine whether they have effective programs in place to monitor employees receiving
workers’ compensation payments. Our findings are summarized below:

•   DO did not (1) monitor the status of cases on the periodic rolls, (2) maintain adequate case
    files, (3) institute a return-to-work program, (4) review quarterly FECA chargeback reports for
    errors or potential program abuse, or (5) establish written policies and procedures for this
    activity. DO was unable to locate 10 of the 15 workers’ compensation case files that we
    selected for review.

•   Overall, BEP has an effective program to monitor employees receiving workers’ compensation
    payments but does not have written internal guidelines to address case file management and
    to monitor the status of overpayments.

We made recommendations to address the issues we found, and DO and BEP concurred with the
recommendations. As a result of our review, DO is evaluating the feasibility of outsourcing the
administration of this program. BEP intends to develop and implement internal guidelines to
monitor the status of workers’ compensation cases by January 2008. (OIG-07-043 and
OIG-07-049)

The Mint Has Taken Action to Improve Its Purchase Card Program

We reviewed corrective actions taken by the Mint in response to five of the nine
recommendations we made in our report Manufacturing Operations: Control Weaknesses and
Poor Management Oversight in the Mint’s Purchase Card Program, OIG-04-029 (Mar. 2, 2004).
These recommendations involve modifying Mint purchase card policy, improving agency program
coordinator oversight of the program, strengthening documentation requirements, and enhancing
training materials for and training compliance by participants in the program. We found that the
corrective actions taken by the Mint adequately responded to the five recommendations.
(OIG-07-036)




             Treasury Office of Inspector General Semiannual Report – September 2007          16
                            S IGNIFICANT I NVESTIGATIONS

Improper Payments Initiative
OI continues to proactively participate in identifying potentially fraudulent federal benefit and
assistance payments warranting further investigation. The President’s Management Agenda
specifically identified the erroneous disbursement of federal benefit and assistance payments
as an agenda item. In keeping with the President’s recognition of this financial vulnerability
and to better provide accountability to the public, we initiated a cooperative effort with our
partner OIGs to review benefit and assistance programs that are vulnerable to fraud.

Since the start of this initiative, we have worked closely with our counterparts at the Social
Security Administration (SSA), the Railroad Retirement Board (RRB), the Veterans
Administration (VA), and other federal agencies. This joint effort resulted in the identification
of 88 potential violators who unlawfully obtained approximately $5.9 million in potential
federal benefits. In addition, these joint efforts have resulted in the arrest of 20 individuals, the
conviction of 14, restitutions of $530,950, and the recovery of $85,404. Details on
convictions, guilty pleas, indictments, and arrests during this semiannual period resulting from
this initiative are as follows:

                               A joint investigation by the Treasury OIG and the SSA OIG
Jorge Borges
                               disclosed that Jorge Borges unlawfully converted and negotiated
unlawfully converted
                               SSA benefit checks issued to his deceased wife. On
and negotiated SSA
                               December 15, 2006, Borges was indicted by a federal grand jury
benefit checks issued to
                               in the Southern District of Florida on one count of theft and seven
his deceased wife.
                               counts of forgery. On February 6, 2007, Borges pled guilty to one
                               count of theft of government funds. On April 27, 2007, he was
                               sentenced to imprisonment for 6 months and supervised release
                               for 3 years. In addition, he was ordered to pay a court assessment
                               of $100 and restitution of $7,330.

                               A joint investigation by the Treasury OIG, the SSA OIG, ICE, and
The investigation              the United States Postal Inspection Service resulted in the
disclosed that Diaz            March 7, 2007, indictment of Jose Diaz by a federal grand jury on
improperly converted           theft and identity fraud charges, and his subsequent arrest on
and negotiated SSA             March 28, 2007. The investigation disclosed that Diaz improperly
benefit checks in the          converted and negotiated SSA benefit checks in the estimated
estimated amount of            amount of $26,000. On August 6, 2007, Diaz pled guilty in
$26,000.                       United States District Court for the Eastern District of North
                               Carolina to one count of aggravated identity theft. Diaz is
                               scheduled for sentencing in December 2007.

                               A joint investigation by the Treasury OIG and the VA OIG resulted
The two-count                  in the indictment and arrest of four Georgia residents. On April 27,
indictment charged             2007, the four subjects were indicted on theft and identity fraud
each subject with the          charges by a grand jury in Fulton County, Georgia. The two-count
unlawful taking of VA          indictment charged each subject with the unlawful taking of VA
benefits….                     benefits, which were issued via U.S. Treasury checks, and the
                               fraudulent use of the identity of the intended VA benefits


                Treasury Office of Inspector General Semiannual Report – September 2007           17
                          S IGNIFICANT I NVESTIGATIONS

                           recipient. The investigation determined that an estimated $40,000
                           was disbursed following the death of the intended recipient.

The investigation          A joint investigation by the Treasury OIG and the VA OIG resulted
determined that            in the May 3, 2007, arrest of a Georgia resident on state charges
approximately $69,000      of theft by deception related to the alleged unlawful receipt and
in VA benefit              conversion of VA benefit payments. The investigation determined
payments was issued        that approximately $69,000 in VA benefit payments was issued
to the subject’s mother    to the subject’s mother, via electronic fund transfers by FMS,
…after her recorded        after her recorded death in December 2002. It was alleged that
death in December          the subject unlawfully received and converted the improperly
2002.                      issued VA benefit payments to her own personal use.

                           A joint investigation by the Treasury OIG and the VA OIG
Matthew or Lisa            disclosed that Matthew and Lisa Drum unlawfully obtained VA
Drum withdrew              benefit funds initially intended for an individual who died in
approximately              October 2003. It was determined that from approximately October
$13,750 from the           2003 through December 2004, Matthew or Lisa Drum withdrew
bank account of the        approximately $13,750 from the bank account of the deceased
deceased payee and         payee and converted it to their personal use. Matthew Drum and
converted it to their      Lisa Drum were both arrested and charged with theft, forgery, and
personal use.              identity fraud in the Superior Court of Douglas County, Douglas
                           County, Georgia. On May 10, 2007, Matthew Drum pled guilty to
                           one count of theft by taking and eleven counts of forgery. He was
                           subsequently sentenced to 10 years of confinement on the theft
                           charge, 10 years of confinement on one forgery charge (to run
                           consecutively), and 10 years of confinement on the ten additional
                           forgery charges (to run concurrently with the 10 years
                           confinement on the theft charge, with credit for time served since
                           February 2, 2007). On August 16, 2007, Lisa Drum pled guilty to
                           one count of theft by taking and eleven counts of forgery. She
                           was subsequently sentenced to 5 years of confinement on the
                           theft charge, and 5 years of confinement on the eleven additional
                           forgery charges, to run concurrently with the 5 years confinement
                           on the theft charge. However, the court deemed that the sentence
                           could be served on probation. Matthew and Lisa Drum were both
                           ordered to pay joint restitution of $11,000.

                           A joint investigation by the Treasury OIG and the VA OIG resulted
[T]he defendant            in the July 20, 2007, sentencing of a Georgia resident, as part of
unlawfully converted       a Pretrial Diversion Program in the State Court of Stephens
VA benefits to her
                           County, Georgia. The defendant, Janelle Pittman, who was
personal use, following
                           charged with eleven counts of theft by deception, was sentenced
her grandmother’s
                           to confinement for 12 months, which may be served on probation
death in May 2005.
                           for 8 years. In addition, the subject was ordered to pay restitution
                           of $5,054 and a court fine of $1,100. The investigation disclosed




            Treasury Office of Inspector General Semiannual Report – September 2007          18
                          S IGNIFICANT I NVESTIGATIONS

                             that the defendant unlawfully converted VA benefits to her
                             personal use following her grandmother’s death in May 2005.

The following are updates on Improper Payment Initiative cases from previous semiannual
reports.

•   On March 27, 2007, two Ohio residents, Sophia Austin and April Ayers, were indicted by
    a federal grand jury in the Northern District of Ohio for the theft of government funds after
    joint Treasury OIG and RRB OIG investigations revealed that the individuals had unlawfully
    received federal payments. Austin was charged with the theft of government funds for her
    alleged negotiation of Treasury checks issued in the name of her deceased mother. Since
    her mother’s death, in November 1994, Austin assumed the identity of her mother and
    unlawfully obtained RRB widow-annuitant benefits totaling more than $186,000. Ayers
    was charged with the theft of government funds for her unlawful receipt of RRB
    unemployment payments totaling more than $7,000, relating to her alleged filing of false
    unemployment claims.

    Update: In June 2007, Ayers and Austin each pled guilty to one count of violation of
    18 U.S.C. §641, Public Money, Property or Records. On August 28, 2007, Ayers was
    sentenced to 3 years of probation and ordered to pay restitution to RRB of $7,056. On
    September 14, 2007, Austin, who had been held in pretrial detention since June 2007,
    was sentenced to 37 months incarceration (with credit for time served), followed by 3
    years of supervised release, and ordered to pay restitution to RRB of $186,358.

•   A joint Treasury OIG and Office of Personnel Management OIG investigation revealed that
    Thomas Hatchell fraudulently obtained civil service retirement benefits that were initially
    intended for his mother, who died in October 1997. The Office of Personnel Management
    determined that since the mother’s death, $156,429 was paid via electronic funds transfer
    to her account. Hatchell wrote several checks to himself against the account to illegally
    access the funds. On January 29, 2007, Hatchell pled guilty in the United States District
    Court for the Eastern District of Virginia to one count of theft and conversion of
    government funds.

    Update: On May 4, 2007, Hatchell was sentenced to 3 years of probation, including 6
    months of home confinement, and ordered to pay $156,429 in restitution to the Office of
    Personnel Management and an assessment in the amount of $100.

•   Joint Treasury OIG and VA OIG investigations revealed that Hope Byrd and Cleophas
    Kimbrough, Jr., residents of Mobile County, Alabama, received, possessed, and converted
    to their own use VA benefit checks that were sent to their respective deceased mothers.
    From the time of their mothers’ deaths in 2003, until the payments were discontinued in
    2006, Byrd improperly received approximately $22,000 and Kimbrough improperly
    received approximately $12,000. In January 2007, both individuals were separately
    indicted by a federal grand jury in the United States District Court for the Southern District
    of Alabama on ten counts of mail fraud. In March 2007, Byrd and Kimbrough each pled
    guilty to one count of mail fraud.




              Treasury Office of Inspector General Semiannual Report – September 2007           19
                           S IGNIFICANT I NVESTIGATIONS

   Update: On June 11, 2007, Byrd was sentenced to 5 years of probation, including 3
   months of home confinement. She was also ordered to pay $28,121 in restitution to VA
   and a $100 assessment. On June 29, 2007, Kimbrough was sentenced to imprisonment
   for 1 year and 1 day (with credit for time served) and upon his release is to be on
   supervised release for 3 years. In addition, Kimbrough was ordered to pay restitution of
   $14,165 and an assessment of $100.



Other Significant Investigations

Former Mint Contractor Is Debarred

A Treasury OIG investigation resulted in the debarment of Jamie Franki, a former design
contractor for the Mint. The debarment prohibits Franki from participating in U.S. government
procurements and is effective for 3 years from the debarment date of September 6, 2007.

                                              Our investigation revealed that Franki, who served
 Franki...submitted impermissibly derived     as an artistic designer for Mint coins, submitted
 artwork to the Mint for the American Eagle   impermissibly derived artwork to the Mint for the
 Platinum Coin series.                        American Eagle Platinum Coin series. It was
                                              determined that Franki falsified his design
submission after creating a derivative illustration of work by the artist John Pezzenti, from a
book called The American Eagle, and certifying it to be his own original work. The Mint
terminated Franki’s contract in 2006.

Former Office of Technical Assistance Contractor Is Debarred

A Treasury OIG investigation resulted in the           Brown...submitted six fraudulent vouchers to
debarment of Melville Brown, a former personal         Treasury, related to expenses incurred for
services contractor of the Office of Technical         self-storage rental space in Bonita Springs,
Assistance. The debarment prohibits Brown from         Florida.
participating in U.S. government procurements and
is effective for 3 years from the debarment date of August 7, 2007.

Our investigation revealed that Brown, who served as a Resident Banking Advisor in Kiev,
Ukraine, submitted six fraudulent vouchers to Treasury related to expenses incurred for self-
storage rental space in Bonita Springs, Florida. It was determined that Brown falsified invoices
related to these expenses by claiming a rental cost of $450 per month when the actual rental
cost for the storage was only $159 per month. In total, Brown received reimbursement for
storage expenses in excess of $10,000. The Office of Technical Assistance terminated
Brown’s contract in July 2004.

OCC Employees Receive Counseling for Ethics and Improper Disclosure Violations

An OCC employee was found to have improperly engaged in outside employment by
performing contract loan closing services for a company that was found to be an affiliate of a


              Treasury Office of Inspector General Semiannual Report – September 2007           20
                            S IGNIFICANT I NVESTIGATIONS

national bank. Additionally, the subject violated government ethical standards of conduct by
not obtaining the requisite prior approval from both his supervisor and the OCC ethics counsel.
As a result of our investigation, the employee was verbally cautioned by his supervisor.

A Treasury OIG investigation concerning another OCC employee disclosed that the employee
improperly released sensitive information regarding a national bank to a person not entitled to
the information before the bank made the information public. The employee was issued a
written memorandum of counseling by his supervisor.

BEP Police Officers Receive Suspensions, Letters of Reprimand, and Counseling for
Forwarding Pornographic E-mails

 [T]welve BEP police officers were involved in A Treasury OIG investigation disclosed that twelve
 receiving, viewing, forwarding, sending,      BEP police officers were involved in receiving,
 and/or savings sexually explicit or           viewing, forwarding, sending, and/or saving
 inappropriate images while using a            sexually explicit or inappropriate images while
 government computer on duty.                  using a government computer on duty. The
                                               determination was based on the computer forensic
                                               analysis of e-mail conducted by the Treasury OIG
computer forensics specialist and through subject interviews. On May 16, 2007, BEP advised
us that as a result of our investigation, four subjects received suspensions, two subjects
received letters of reprimand, and two subjects received letters of warning.

Mint Employee Is Terminated for Abusing Public Transportation Incentive Program

A Treasury OIG investigation found that a Mint     [A] Mint employee used a counterfeit Mint
employee used a counterfeit Mint parking pass      parking pass to park his privately owned
to park his privately owned vehicle in the Mint    vehicle in the Mint parking garage while he
parking garage while he was enrolled in the Mint   was enrolled in the Mint Public
Public Transportation Incentive Program. At the    Transportation Incentive Program.…
time of the investigation, the Mint provided up to
$105 per month to Mint employees who qualify for the program. On March 26, 2007, the
Mint advised us that the employee had been terminated.



The following are updates on other significant investigations discussed in previous semiannual
reports.

Former BEP Employee Is Convicted of Scheme to Defraud Federal Employee Workers’
Compensation Program

As previously reported, the Treasury OIG, the Department of Labor OIG, and the Federal
Bureau of Investigation jointly investigated the fraudulent receipt of workers’ compensation by
former BEP employee Sherman Berry. The investigation determined that Berry, who had been
receiving workers’ compensation since approximately March 1992, submitted fraudulent
documentation in support of his claim and fraudulently received benefits in an extensive


              Treasury Office of Inspector General Semiannual Report – September 2007            21
                         S IGNIFICANT I NVESTIGATIONS

workers’ compensation fraud scheme. In February 2006, Berry was indicted by a federal grand
jury in the District of Columbia on three counts of making false statements to obtain federal
employees’ compensation, three counts of wire fraud, and one count of making false
statements. On February 1, 2007, a jury returned a guilty verdict on all seven counts.

Update: On May 4, 2007, Berry was sentenced to 3 years of incarceration and 3 years of
supervised release upon his release from incarceration. In addition, he was ordered to pay
restitution of $290,000 and an assessment of $700.

Joint Investigation Leads to Conviction for Workers’ Compensation Fraud

As previously reported, a joint investigation by Treasury OIG and the United States Postal
Service OIG resulted in the December 19, 2006, indictment of Bobbie Thomas by a federal
grand jury in the United States District Court for the District of South Carolina on one count of
workers’ compensation fraud. The investigation disclosed that Thomas participated in
physically arduous outside employment activities while claiming disability from a back injury
and certifying to the Office of Workers’ Compensation Programs that she had not received any
wages while claiming disability. Thomas received an estimated $100,000 in workers’
compensation benefits from the Office of Workers’ Compensation Programs.

Update: On May 14, 2007, Thomas entered a guilty plea in the United States District Court
for the District of South Carolina. Thomas was sentenced on September 25, 2007, to
probation for 2 years and ordered to pay restitution of $35,553 and a special assessment fee
of $100.

Joint Fraud Investigation Leads to Conviction of Maryland Resident

As previously reported, as a result of a joint Treasury OIG and U.S. Secret Service
investigation, Edward Everett Brown, Jr., a resident of Silver Spring, Maryland, was indicted
on three counts by a federal grand jury in the District of Columbia for attempting to defraud
the Treasury Federal Credit Union when he attempted to negotiate two fictitious obligations (in
the amounts of $2.9 million and $5.5 million) at two of the credit union’s locations in
Washington, DC. The defendant was indicted on one count of bank fraud and two counts of
uttering fictitious obligations. When the case went to trial in April 2007, the jury was unable
to reach a unanimous verdict, resulting in a mistrial.

Update: The case was retried in July 2007. On August 3, 2007, a federal jury in the District
of Columbia found Brown guilty on one count of bank fraud and two counts of uttering
fictitious obligations. Brown faces a maximum of 25 years in prison.




             Treasury Office of Inspector General Semiannual Report – September 2007           22
              O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Treasury OIG Hosts Indonesian Delegation

In June 2007, Acting Inspector General Schindel and OIG executives met with governmental
representatives from the Republic of Indonesia to discuss the mission of U.S. government
Inspectors General and the Treasury OIG. Attending from Indonesia were Dr. Hekinus Manao,
Director of Accounting and Financial Reporting, Ministry of Finance; Mr. Krishna Pandji,
Inspector, Ministry of Finance; Mr. Iskandar, Inspector, Ministry of State Apparatus; Mr. Djoko
Santoso, Inspector, Ministry of Home Affairs; Mr. Setia Budi, Director of State Apparatus,
National Development Planning Agency; and Dr. Meidyah Indreswari, Auditor Analyst,
Development Supervisory Agency. Also participating in the briefing, which was arranged by
the Department’s Office of International Affairs, was James Lingebach, Director of the Office
of Accounting and Internal Control.




Acting IG Schindel
and OIG staff meet
with Indonesian officials
to discuss the OIG
mission.




PCIE Awards

At the annual joint President’s Council on Integrity and Efficiency (PCIE) and Executive Council
on Integrity and Efficiency (ECIE) ceremony on October 23, 2007, Treasury OIG received three
Awards for Excellence in recognition of its audit and investigative work. The achievements
recognized were as follows:

•   An audit that found that OCC did not take strong enforcement action against Wells Fargo
    Bank despite 5 years of BSA compliance program deficiencies.

•   Audits of OCC and OTS examinations for OFAC compliance that found better
    documentation of regulator oversight was needed.

•   The interagency Improper Payments Initiative, which is aimed at identifying and
    prosecuting those individuals who have fraudulently received federal benefit payments.




               Treasury Office of Inspector General Semiannual Report – September 2007       23
              O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Also recognized with an individual Award for Excellence was Joel Grover, Deputy Assistant
Inspector General for Financial Management and Information Technology Audits, for his
leadership and promotion of excellence in federal financial management as the chair of the
Financial Statement Audit Network over the last 10 years.




OIG staff at PCIE/ECIE
award ceremony: Steve
Syriala (award recipient),
Bob Taylor, Acting Inspector
General Dennis Schindel,
Marla Freedman, Brian
Crane (award recipient), Joel
Grover (award recipient),
Nick Swanstrom, and Mark
Ossinger (award recipient).




OIG Executive Recognized by Texas A&M University – Corpus Christi

In September 2007, Joel Grover was recognized with the Dean’s Appreciation Award for his
participation in a panel discussion on careers in government attended by accounting students
at the Texas A&M College of Business. The panel was part of a semiannual meeting of
American Institute of Certified Public Accountants Government Performance and
Accountability Committee, of which Mr. Grover is a member.

Treasury OIG Special Agent Recipient of Department of Justice Law Enforcement
Award

In May 2007, Treasury OIG Special Agent Jason Weber was recognized for his service at the
U.S. Department of Justice’s Twenty-Seventh Annual Law Enforcement Awards Ceremony.
Along with agents of the United States Postal Inspection Service and the U.S. Secret Service,
Special Agent Weber received an award for his work as part of the joint investigation of
Jeffrey Rothschild, who was convicted of bank fraud, mail fraud, and money laundering in a
scheme to defraud the Federal Emergency Management Agency of more than $100,000 in
relief funds intended for victims of Hurricanes Katrina and Rita. In February 2007, Rothschild
was sentenced to 102 months of incarceration and 36 months of supervised release and was
ordered to pay restitution of $129,139.




               Treasury Office of Inspector General Semiannual Report – September 2007       24
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

OIG Leadership Roles in the Federal Audit Executive Council

The Federal Audit Executive Council (FAEC) consists of audit executives from the OIG
community and other federal audit organizations. Its purpose is to discuss and coordinate
issues affecting the federal audit community with special emphasis on audit policy and
operations of common interest to FAEC members. During the period, Treasury OIG continued
to actively support a number of FAEC initiatives.

As chair of the FAEC Training Committee, Marla Freedman, Assistant Inspector General for
Audit, worked with other committee members to redefine the committee’s purpose. As
discussed in previous semiannual reports, the committee’s focus had been to review course
offerings by the Inspectors General Auditor Training Institute, which ceased operations in
January 2007. Going forward, the committee plans to promote and support auditor training by
(1) developing standard statements of work to contract for auditing courses, (2) maintaining a
website to facilitate information sharing on sources of training and training partnering/sharing
opportunities, and (3) providing review services for training courses.

Joel Grover serves as co-chair of the FAEC Financial Statements Committee and is actively
involved in developing and coordinating FAEC positions on a variety of accounting and auditing
issues related to federal financial reporting. The committee also jointly sponsors with the
Government Accountability Office an annual federal financial accounting and auditing update
conference.

Bob Taylor, Deputy Assistant Inspector General for Performance Audits, is leading a multi-
agency effort to update the PCIE/ECIE guide for external peer reviews of federal audit
organizations. External peer reviews are required every 3 years under Government Auditing
Standards. The updated guide will incorporate the requirements of the 2007 revision to those
auditing standards.

Participation in Hurricane Katrina Fraud Task Force Continues

We continued our participation in the Hurricane Katrina Fraud Task Force. The task force was
established in 2005; its mission is to detect, deter, prevent and punish those who engage in
criminal conduct in the wake of the devastation caused by Hurricanes Katrina, Rita, Wilma,
Frances, and Jeanne. Since our last semiannual report, we have detailed two agents to the
Department of Homeland Security OIG to assist with investigations involving Katrina-related
fraud. The agents have developed leads toward the opening of 15 federal criminal
investigations. These ongoing investigations have led to two federal grand jury indictments,
and additional indictments are expected. To date, more than 400 individuals have been
charged with various hurricane fraud-related violations, involving millions of dollars.

Among the cases highlighted in the Hurricane Katrina Fraud Task Force’s First Year Report to
the Attorney General was the joint investigation by Treasury OIG, the United States Postal
Inspection Service, and the U.S. Secret Service of Jeffrey Rothschild.




             Treasury Office of Inspector General Semiannual Report – September 2007         25
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Treasury OIG Continues Participation in U.S. Secret Service–Sponsored Fraud Task
Forces

During this reporting period, we participated in the execution of numerous federal and state
search and arrest warrants and other investigative activities with the U.S. Secret Service,
Baltimore Fraud Task Force and Washington Metro Area Task Force. One notable case
involved the theft and negotiation of nine Treasury checks with a value totaling approximately
$265,000. Additionally, in August and September 2007, we assisted the U.S. Secret Service,
United States Postal Inspection Service, and the SSA OIG with an investigation involving theft
and negotiation of Treasury checks in Baltimore, Maryland.

Treasury OIG Participates in Special Olympics Law Enforcement Torch Run

On June 8, 2007, OI participated in the 22nd Annual Law Enforcement Torch Run organized by
the Special Olympics, District of Columbia. The annual project helps unify the law enforcement
community in a common goal and displays its commitment to the community’s children and
adults with intellectual disabilities. Proceeds from the event help fund the Special Olympics
Summer Games.




             Treasury Office of Inspector General Semiannual Report – September 2007        26
                                  S TATISTICAL S UMMARY


Summary of OIG Activity
For the 6 Months Ended September 30, 2007


                                                                                    Number or
        OIG activity
                                                                                    dollar value
                                        Office of Counsel activity
        Regulation and legislation reviews                                                     14
        Instances where information was refused                                                 0
                                         Office of Audit activities
        Reports issued (audits and evaluations)                                                14
        Disputed audit recommendations                                                          0
        Significant revised management decisions                                                0
        Management decision in which the IG disagrees                                           0
        Monetary benefits (Audit)
            Questioned costs                                                                   $0
            Funds put to better use                                                            $0
            Revenue enhancements                                                               $0
            Total monetary benefits                                                            $0
                                    Office of Investigations activities
        Cases (investigations and inquiries)
            Opened in the reporting period                                                      68
            Closed in the reporting period                                                     128
            Total cases in progress (as of 9/30/2007)                                          239
        Criminal and judicial actions (includes joint investigations)
            Cases referred for prosecution                                                         95
            Cases accepted for prosecution                                                          0
            Arrests                                                                                 6
            Indictments/information                                                                 4
            Convictions (by trial and plea)                                                         8
            Imprisonment (months)                                                              331
            Probation/supervised release (months)                                              636
            Total monetary results (fines/restitutions/recoveries) includes joint
                                                                                         $793,070
            investigations
        Administrative sanctions
            Total adverse personnel actions taken                                                  45
            Contractor suspensions/debarments                                                       2
        Oversight activities
            Prevention and detection briefings                                                     25




             Treasury Office of Inspector General Semiannual Report – September 2007                    27
                              S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to September 30, 2007

 Number       Date   Report Title and Recommendation Summary

OIG-03-007   10/02 Terrorist Financing/Money Laundering: Controls Over FinCEN's Law Enforcement
                   Data Need Improvement
                   The FinCEN Director should establish a formal process for approving,
                   transmitting, and maintaining system access authorization forms to reduce the
                   risks associated with granting excessive or unauthorized access privileges,
                   alterations, misunderstandings, and mishandled forms. (1 recommendation)


OIG-04-035   6/04    General Management: Controls Over Security Need to be Improved at
                     the Bureau of Engraving and Printing
                     The BEP Director should complete plans for the bureau’s Integrated Security
                     Systems and install its security upgrade systems expeditiously.
                     (1 recommendation)


OIG-05-032   3/05    Terrorist Financing/Money Laundering: Office of Terrorist Financing
                     and Financial Crimes Needs to Refine Measures for Its Performance Budget and
                     Implement a Data Collection and Reporting System
                     The Assistant Secretary for Terrorist Financing should ensure that the Office of
                     Terrorist Financing and Financial Crime (1) implements the recently proposed
                     performance measures, adjusted as appropriate based on planned discussions
                     with OMB, and include the measures in the Department’s fiscal year 2006
                     budget submission; (2) implements routine data collection and reporting
                     procedures to help manage its operation and report on its performance
                     measures; (3) creates a mechanism that will allow the office to regularly gather
                     reliable data for organizations outside of Treasury; and (4) develops methods to
                     assess the completeness and reliability of its performance measurement data.
                     (4 recommendations)


OIG-05-043   8/05    Information Technology: Effective Security Controls Needed to
                     Mitigate Critical Vulnerabilities in Departmental Offices’ Networked
                     Information Systems
                     Due to the sensitive nature of the findings and recommendations, we designated
                     the report Limited Official Use. Two recommendations in the report have not
                     been implemented.


OIG-06-010   12/05 Bill and Coin Manufacturing: The Bureau of Engraving and Printing
                   Should Ensure That Its Currency Billing Rates Include All Costs and That
                   Excess Working Capital Is Deposited in the General Fund
                   BEP should ensure that currency billing rates consider the full cost of operations,
                   including imputed costs such as the imputed cost of employee benefits paid by
                   the Office of Personnel Management. To the extent that the currency rates result
                   in excess monies to the BEP revolving fund, they should be deposited as
                   miscellaneous receipts to the Treasury general funds. (1 recommendation)


             Treasury Office of Inspector General Semiannual Report – September 2007                28
                              S TATISTICAL S UMMARY


                     Because this recommendation involves a policy issue with government-wide
                     implications, the Department referred the matter to OMB. Resolution is pending.


OIG-06-020   12/05 Management Letter for Fiscal Year 2005 Audit of the Federal Financing
                   Bank’s Financial Statements
                   The Federal Financing Bank should formally document its system development
                   methodology and configuration management plans. (1 recommendation)


OIG-06-021   1/06    Management Letter for Fiscal Year 2005 Audit of the Department of the
                     Treasury's Financial Statements
                     The CFO should: (1) immediately begin the strategic human capital planning
                     necessary to ensure that the offices will have the knowledge, skill, and abilities it
                     needs to meet its mission; (2) as part of its planning effort, consider what
                     actions can be taken now without additional staff, to ensure that if a key staff
                     member is unexpectedly unavailable to perform his or her duties that the
                     officers’ mission will be met with minimal disruption; (3) have the Department
                     research and determine whether component reporting entities reporting on a
                     basis other than federal generally accepted accounting principles are required to
                     do so by statute; (4) ensure that all reporting entities within the Department
                     prepare their financial statements in accordance with federal generally accepted
                     accounting principles unless statutorily required to report in accordance with a
                     different basis of accounting; (5) prepare written operating procedures with
                     accompanying rationale as to why the proprietary accounts chosen approximate
                     budgetary definitions; (6) request approval from OMB for the definitions the
                     Department uses to translate Exchange Stabilization Fund (ESF) proprietary
                     accounts to budgetary line items to prepare Statements of Budgetary Resources
                     and Financing, recognizing that standard federal budgetary definitions do not
                     apply to ESF’s investment portfolio fund; (7) explore with OMB alternative ways
                     of providing meaningful, accurate, and consistent data on ESF in the President’s
                     Budget and how the information should be reported in the governmentwide
                     financial statements and Fund Balance with Treasury balances; (8) develop and
                     implement policies to require storage of backup tapes in fireproof boxes so that
                     they will be protected in the event of a disaster; and (9) develop, implement, and
                     test a continuity of operations plan and a disaster recovery plan for the Treasury
                     Information Executive Repository and CFO Vision applications. Additionally, this
                     plan should be tested annually upon implementation. (9 recommendations)


OIG-06-023   1/06    Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years
                     2005 and 2004 Financial Statements
                     The Treasury Forfeiture Fund should (1) for all common support costs not
                     directly traceable to individual seizures, develop and implement an allocation
                     process and (2) pursue the enhancement of the Seized Assets and Case Tracking
                     System capabilities to record and report total expenses at the asset level.
                     (2 recommendations)




             Treasury Office of Inspector General Semiannual Report – September 2007                   29
                              S TATISTICAL S UMMARY


OIG-06-030   5/06    Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to
                     Better Analyze Bank Secrecy Act Data but Challenges Remain
                     FinCEN should enhance the current FinCEN Database system or acquire a new
                     system. An improved system should provide for complete and accurate
                     information on the case type, status, resources, and time expended in
                     performing the analysis. This system should also have the proper security
                     controls to maintain integrity of the data. (1 recommendation)


OIG-06-034   8/06    Bank Secrecy Act: OCC Did Not Take Formal Enforcement Action Against
                     Wells Fargo Bank for Significant BSA Deficiencies
                     The Comptroller of the Currency should closely monitor Wells’s implementation
                     of its BSA compliance plan and, if implementation is not adequate or timely,
                     swiftly take appropriate formal enforcement action (e.g., a cease and desist
                     order). (1 recommendation)


OIG-06-040   9/06    Information Technology: Effective Security Controls Needed to
                     Mitigate Critical Vulnerabilities in the Office of the Comptroller of the Currency’s
                     Networked Information Systems
                     Due to the sensitive nature of the findings and recommendations, we designated
                     the report Limited Official Use. Three recommendations in the report have not
                     been implemented.


OIG-06-042   9/06    Information Technology: OCC Disaster Recovery Procedures Need to be
                     Improved
                     Due to the sensitive nature of the findings and recommendations, we designated
                     the report Limited Official Use. One recommendation in the report has not been
                     implemented.


OIG-06-043   9/06    Revenue Protection: TTB’s Revenue Protection Audits Target the Largest
                     Taxpayers
                     The Administrator of the Alcohol and Tobacco Tax and Trade Bureau should
                     improve federal excise tax controls over Electronic Fund Transfer payments to
                     ensure accurate and reliable taxpayer account histories. The entire account
                     history needs to include adjustments and correcting entries.


OIG-06-044   9/06    Foreign Assets Control: Assessing OTS’s Examination of OFAC
                     Compliance Was Hampered by Limited Documentation
                     The Director of OTS should ensure that OTS examiners (1) use the pertinent
                     policies and procedures in the FFIEC Bank Secrecy Act/Anti-Money Laundering
                     Examination Manual and in the OTS Examination Handbook and policy directives
                     when examining thrifts for OFAC compliance and (2) use the OFAC scoping and
                     planning procedures from the FFIEC Bank Secrecy Act/Anti-Money Laundering
                     Examination Manual to document the OFAC procedures performed and include
                     the procedures and the basis for OFAC conclusions in the workpapers.
                     (2 recommendations)



             Treasury Office of Inspector General Semiannual Report – September 2007                  30
                                S TATISTICAL S UMMARY


This list of OIG audit reports with unimplemented recommendations is based on information in
Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.


Summary of Instances Where Information Was Refused
April 1, 2007, through September 30, 2007

There were no such instances during this period.


Listing of Audit and Evaluation Reports Issued
April 1, 2007, through September 30, 2007

Financial Audits and Attestation Engagements

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt’s Administrative Resource Center for the Period July 1, 2006 to June 30, 2007,
OIG-07-044, 8/17/07

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt’s Federal Investments Branch for the Period August 1, 2006 to July 31, 2007, OIG-07-046,
9/11/07

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt’s Trust Fund Management Branch for the Period August 1, 2006 to July 31, 2007,
OIG-07-047, 9/11/07

Information Technology Audits and Evaluations

Information Technology: Treasury Successfully Demonstrated its TCS Disaster Recovery Capability,
OIG-07-041, 6/25/07

Information Technology: BEP Improved Controls Over Its Computer Security Incidence Response
Capability (Corrective Action Verification on OIG-05-039), OIG-07-045, 9/11/07

Information Technology: Fiscal Year 2007 Evaluation of Treasury’s FISMA Implementation for Its Non-
IRS Intelligence Systems (Classified Report), OIG-CA-07-008, 8/9/07

Performance Audits

Manufacturing Operations: The Mint Has Taken Action to Improve Its Purchase Card Program
(Corrective Action Verification on OIG-04-029), OIG-07-036, 4/5/07

Safety and Soundness: OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks
Following Emergencies, OIG-07-038, 5/25/07

International Assistance: Survey of Treasury’s Trade Facilitation Operations, OIG-07-039, 5/29/07



              Treasury Office of Inspector General Semiannual Report – September 2007               31
                                      S TATISTICAL S UMMARY


Export Controls: CFIUS and OFAC Implemented Prior OIG Recommendations, OIG-07-040, 6/12/07

General Management: Departmental Offices Did Not Have an Effective Workers’ Compensation
Program, OIG-07-043, 7/13/07

Foreign Assets Control: Actions Have Been Taken to Better Ensure Financial Institution Compliance With
OFAC Sanction Programs, But Their Effectiveness Cannot Yet Be Determined, OIG-07-048, 9/20/07

General Management: BEP Generally Has an Effective Program to Monitor Employees Receiving
Workers’ Compensation Payments, OIG-07-049, 9/20/07

Supervised Contract Audit

Contract Audit: Audit Report on Contract Audit Closing – Metrica Contract TOS-97-16, OIG-07-037,
4/30/07



Audit Reports Issued With Questioned Costs
April 1, 2007, through September 30, 2007

                                                                                         Total
        Category                                                  No. of         Questioned           Unsupported
                                                                  reports        costs                costs
        For which no management decision had been
        made by beginning of reporting period                               2       $12,433,093                   0

        Which were issued during the reporting period                       0                    $0               0
        Subtotals                                                           2       $12,433,093                   0
        For which a management decision was made
        during the reporting period                                         2       $12,433,093                   0

                 dollar value of disallowed costs                           2       $12,433,093                   0
                 dollar value of costs not disallowed                       0                    $0               0
        For which no management decision had been
        made by the end of the reporting period                             0                    $0               0

            For which no management decision was
            made within 6 months of issuance                                0                    $0               0

        A “Questioned Cost” denotes that one or more of the following three situations exist: (1) an alleged
        violation of a provision of a law, regulation, contract, grant, cooperative agreement, other agreement or
        document governing the expenditure of funds; (2) a finding that, at the time of the audit, such cost is not
        supported by adequate documentation; or (3) a finding that the expenditure of funds for the intended
        purpose is unnecessary or unreasonable.




               Treasury Office of Inspector General Semiannual Report – September 2007                                32
                             S TATISTICAL S UMMARY

Audit Reports Issued With Recommendations That Funds Be Put to Better Use
April 1, 2007, through September 30, 2007

At the beginning of the period, there were no audit reports from prior periods pending a
management decision on recommendations that funds be put to better use. There were also
no audit reports issued during this period with recommendations that funds be put to better
use.


Previously Issued Audit Reports Pending Management Decisions (Over 6 Months)
as of September 30, 2007

There were no audit reports issued before this semiannual reporting period that are pending a
management decision.



Significant Revised Management Decisions
April 1, 2007, through September 30, 2007

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2007, through September 30, 2007

There were no management decisions this period with which the IG was in disagreement.




             Treasury Office of Inspector General Semiannual Report – September 2007          33
          R EFERENCE T O T HE I NSPECTOR G ENERAL A CT




   Reference                                      Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 27
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       9-23
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    9-22
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      28-31
                     semiannual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           27
Section   5(a)(5)    Summary of instances where information was refused                    31
Section   5(a)(6)    List of audit reports                                                31-32
Section   5(a)(7)    Summary of significant reports                                       9-22
Section   5(a)(8)    Audit Reports with questioned costs                                   32
Section   5(a)(9)    Recommendations that funds be put to better use                       33
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           33
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    33
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           33
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                         10
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




           Treasury Office of Inspector General Semiannual Report – September 2007                34
                                A BBREVIATIONS

BEP              Bureau of Engraving and Printing
BPD              Bureau of the Public Debt
BSA              Bank Secrecy Act
CFIUS            Committee on Foreign Investments in the United States
CFO              Chief Financial Officer
DO               Departmental Offices
ECIE             Executive Council on Integrity and Efficiency
ESF              Exchange Stabilization Fund
FAEC             Federal Audit Executive Council
FECA             Federal Employees Compensation Act
FFIEC            Federal Financial Institutions Examination Council
FFMIA            Federal Financial Management Improvement Act of 1996
FinCEN           Financial Crimes Enforcement Network
FISMA            Federal Information Security Management Act of 2002
FMS              Financial Management Service
GMRA             Government Management Reform Act of 1994
ICE              Immigration and Customs Enforcement
IG               Inspector General
IPA              Independent Public Accountant
IRS              Internal Revenue Service
IT               information technology
MCA              managerial cost accounting
MOU              memorandum of understanding
OA               Office of Audit
OCC              Office of the Comptroller of the Currency
OFAC             Office of Foreign Assets Control
OI               Office of Investigations
OIG              Office of Inspector General
OMB              Office of Management and Budget
OTS              Office of Thrift Supervision
PCIE             President’s Council on Integrity and Efficiency
PIIRMG           Personally Identifiable Information Risk Management Group
RRB              Railroad Retirement Board
SSA              Social Security Administration
TCS              Treasury Communications System
TPCC             Trade Promotion Coordinating Committee
VA               Department of Veterans Affairs




         Treasury Office of Inspector General Semiannual Report – September 2007   35
This Page Intentionally Left Blank
  With its colossal colonnade, Treasury’s stone exterior was a
     bold move toward creating a façade unlike any other in
 Washington. Robert Mills’ design for the new Treasury bore
 little resemblance to its brick-clad Georgian predecessor that
      was identical to the State, War, and Navy Department
buildings flanking the east and west sides of the White House.




 This photograph, taken between 1862-1866, shows the stylistic contrast
between the Greek Treasury façade, seen at the left side of the photograph,
   and the Georgian State Department Building, seen at the right side
   of the photograph. The State Department building was demolished
          in 1866 to allow for Treasury’s North wing addition.
                      (Source: Office of the Curator)
 contact us



Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650;
Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Eastern Field Audit Office
                                   Treasury OIG Hotline
408 Atlantic Avenue, Room 330      Call Toll Free: 1.800.359.3898
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax (617) 223-8651                 Treasury OIG Web Page

                                   OIG reports and other information are now
                                   available via the Internet. The address is
                                   http://www.treas.gov/offices/inspector-general
